<html>
<title> - EXAMINING THE NEED FOR COMPREHENSIVE IMMIGRATION REFORM, PART II</title>
<body><pre>[Senate Hearing 109-698]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-698
 
    EXAMINING THE NEED FOR COMPREHENSIVE IMMIGRATION REFORM, PART II

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2006

                               __________

                          Serial No. J-109-97

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
30-098                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........    10
    prepared statement...........................................    69
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................    16
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................    12
    prepared statement...........................................    89
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........    18
Leahy, Patrick J., a U.S. Senator from the State of Vermont......     2
    prepared statement...........................................    91
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....    13
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

Cutler, Michael W., Fellow, Center for Immigration Studies, 
  Washington, D.C................................................    21
Gutierrez, Carlos, Secretary of Commerce, Washington, D.C........     4
Johnson, Benjamin, Director, Immigration Policy Center, American 
  Immigration Law Foundation, Washington, D.C....................    24
McDonald, William F., Professor of Sociology and Anthropology, 
  and Co-Director, Institute of Criminal Law and Procedure, 
  Georgetown University Law Center, Washington, D.C..............    26
O'Dowd, Niall, Founder and Chairman, Irish Lobby for Immigration 
  Reform, New York, New York.....................................    28

                         QUESTIONS AND ANSWERS

Responses of Michael W. Cutler to questions submitted by Senator 
  Kennedy........................................................    37
Responses of Carlos Gutierrez to questions submitted by Senator 
  Kennedy........................................................    50
Responses of Benjamin Johnson to questions submitted by Senator 
  Kennedy........................................................    53
Responses of William F. McDonald to questions submitted by 
  Senator Kennedy................................................    56

                       SUBMISSIONS FOR THE RECORD

Chertoff, Michael, Secretary of Homeland Security, Washington, 
  D.C., statement................................................    67
Cutler, Michael W., Fellow, Center for Immigration Studies, 
  Washington, D.C., statement and letter.........................    71
Gutierrez, Carlos, Secretary of Commerce, Washington, D.C., 
  statement......................................................    75
Johnson, Benjamin, Director, Immigration Policy Center, American 
  Immigration Law Foundation, Washington, D.C., statement........    82
McDonald, William F., Professor of Sociology and Anthropology, 
  and Co-Director, Institute of Criminal Law and Procedure, 
  Georgetown University Law Center, Washington, D.C., statement..    93
Microsoft Corporation, Jack Krumholtz, Managing Director, Federal 
  Government Affairs, Washington, D.C., statement................   106
O'Dowd, Niall, Founder and Chairman, Irish Lobby for Immigration 
  Reform, New York, New York, statement..........................   111


    EXAMINING THE NEED FOR COMPREHENSIVE IMMIGRATION REFORM, PART II

                              ----------                              


                        WEDNESDAY, JULY 12, 2006

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:34 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Arlen 
Specter, Chairman of the Committee, presiding.
    Present: Senators Specter, Kyl, Sessions, Cornyn, Leahy, 
Kennedy, and Feinstein.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. Good morning, ladies and gentlemen.
    The Senate Judiciary Committee will now proceed with this 
hearing on immigration. And will you please start the clock on 
me like everybody else?
    It would be our preference to be conferring with the House 
of Representatives on the immigration matter as opposed to 
setting aside the month of August for hearings. And I do not 
believe we are engaging in dual hearings. But when the House 
announced the scheduling of hearings starting the month of 
August with the overtone of criticizing the Senate bill, it 
seems only reasonable to respond to have hearings to 
demonstrate the necessity to go beyond border security and to 
have a guest worker program and to take care of the 11 million 
undocumented immigrants. It is my hope that after we complete 
those hearings that in September we will move ahead to a 
conference and produce legislation.
    There has been a good deal of talk about a so-called 
trigger to have border security before we move ahead for the 
consideration of a guest worker program or to deal with the 11 
million undocumented immigrants. I think it is worth noting 
that in the Senate bill there are a number of delays. I think 
we should not get bogged down on semantics over substance, but 
ought to deal with what is the substance, not get bogged down 
on amnesty, which the Senate bill is not, because we provide 
for a fine, we provide for no criminal record, we provide for a 
long period of employment, the learning of English, so that 
there is no forgiveness and citizenship is earned under the 
Senate bill.
    We do have some built-in delays. For example, there will be 
no guest worker program under the Senate bill until after there 
have been appropriations for employer verification so that we 
will be sure that we are moving ahead on securing the border to 
eliminate illegals before we move into the guest worker 
program.
    It is also estimated that the regulations on the guest 
workers or on the 11 million will take at least 18 months, 
perhaps longer. So there is a built-in delay. And the 11 
million or those of the 11 million who qualify for citizenship 
will be at the end of the line, and that line will take perhaps 
as long as 6 years.
    I do not often quote Senator Kennedy, but I told him I was 
going to do this. I do not often quote him in his presence.
    Senator Kennedy. That is right. I can hardly wait to hear 
this.
    [Laughter.]
    Chairman Specter. His comment, by the way, comes out of his 
time.
    But this is what Senator Kennedy said when we had the 
hearing last Wednesday at the Constitution Center: ``So if 
there are those who feel a greater sense of satisfaction that 
we are going to move toward the enforcement first, that 
effectively was in the Senate bill.'' So that is a concise 
statement that we may not be so far apart.
    I think there is the beginning of some amenity nationally. 
The recent issue of Time Magazine took up the supportive 
position on guest workers, pointing out that there is so much 
domestic consumption of illegal immigrant labor--housekeepers, 
nannies, gardeners, way above the farmers, the hotels, the 
restaurants that we traditionally talk about. And the Time 
Magazine article I think was right on target in identifying the 
underlying racism and xenophobia which really grips us despite 
our denial of it with the Chinese Exclusion Act going back to 
1882 and the 1924 Immigration Act limiting immigrants from 
southern Italy targeted at Italians and with the limitation on 
Jewish immigrants when the Holocaust was on. So that when there 
is an effort to limit Chinese and Indian immigrants for legal 
status and HB-1, talented, well-qualified people, we see that 
the battle goes beyond legal versus illegal.
    Today's hearing is going to be another effort, continuing 
effort to explain to the American people the importance of 
guest workers and the importance of not having a fugitive 
underclass of 11 million people.
    My red light just went on so I now yield to the 
distinguished Ranking Member, Senator Leahy.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Well, thank you, Mr. Chairman. You have done 
so much work on this--and Senator Kennedy, Senator McCain, 
myself, and others have--that I am sorry to find that the 
election-year politics seem to have diminished the work the 
Senate has done to find a comprehensive solution to the 
Nation's immigration problem.
    We have worked hard in the Senate. We created a bipartisan 
bill, delivered fair and comprehensive reforms, but since its 
passage, we have seen many in the Congress reject efforts to 
move forward and make progress, and notwithstanding what the 
Senate Democratic leaders have tried to do to get to 
conference. So instead, we end up with a series of after-the-
fact hearings. Now, a few, like the one held by the Senate 
Armed Services Committee this week--and I know Senator Kennedy 
was at that were supportive of the Senate bill. We heard a 
powerful statement by General Pace--as those of us with Italian 
ancestry would say, General ``Pa-chay''--this week. The 
Chairman's field hearing, again, attended by Senator Kennedy, 
last week, contributed to the record supporting the Senate 
bill.
    But then we see other hearings that have done nothing more 
than inflame the passions of anti-immigrant activists, and the 
lines seem clear. The anti-immigrant faction opposes a fair and 
comprehensive approach. They seem to abhor establishing a 
pathway to earn citizenship, and they seem to think it is going 
to help in upcoming elections. I would hope not. I think we 
reject the best of America and our values when we refuse to 
recognize all that immigrants bring and mean to this country. 
And I hope that fear and intolerance are not winning political 
strategies.
    It is unrealistic to think we can apprehend and deport 
every undocumented individual the administration has allowed 
into the United States. The reality is that our economy depends 
upon the labor of foreign workers. When Border Patrol agents 
are not spending time and resources apprehending people coming 
here to work, then they can work at really protecting the 
security of this country.
    I believe there is real merit to President Bush's argument 
that if we increase the opportunity to come to the United 
States legally, we will reduce the demand for illegal entry.
    We are a welcoming, diverse country built and enriched by 
immigrants. My maternal grandparents came here from Italy. My 
paternal great-grandparents came here from Ireland. My mother 
learned English as a second language. My parents-in-law came 
here from Canada. My wife learned English as a second language 
as a first-generation American. And how proud they all were to 
come to this country. The distinguished Secretary knows what 
that pride feels like
    The opposition to providing bilingual ballots to bilingual 
American citizens, who are vested with the right to vote, is a 
particularly troubling part of this debate. Section 203's 
guarantee of equality is not just for immigrants but for Native 
Americans and those who have long been citizens. The reality is 
that people who come to the United States embrace the English 
language along with patriotism, as my grandparents did, as my 
mother did, as my wife did. And America loses when we 
discriminate on the basis of national origin or language. 
Isolating ourselves and turning this country into a police 
state is not the way our Nation will remain the beacon of 
freedom and prosperity it has always been. Let us have faith in 
our traditional values. Let us show the strength and purpose 
needed to accomplish the comprehensive reform we need.
    It is critical that President Bush make good on his 
commitment to support the Senate's work. I know how hard we 
worked to get that bill through. But without his active support 
and his steadfast dedication, the Congressional Republican 
efforts to derail comprehensive reform will succeed. I 
applauded the President for his statements earlier on 
comprehensive reform. I hope he will stay steadfast with that. 
If he does, we will pass it. If he does not, we will not. I 
hope he stays with us.
    Thank you, Mr. Chairman.
    Chairman Specter. Thank you very much, Senator Leahy.
    We are pleased to have as our first witness today the very 
distinguished Secretary of Commerce, Carlos Gutierrez; born in 
Havana, Cuba, in 1953, came to the United States at the age of 
7 in 1960; became a naturalized citizen in 1966; went to work 
for the Kellogg Company as a sales representative in 1975, and 
then became the youngest CEO in the history of that illustrious 
company. He has been the Secretary of Commerce since January of 
2005, and he brings to the immigration issue a number of 
perspectives:
    First, as Secretary of Commerce, he is in a position to 
provide expert testimony about the employment picture in the 
United States, just what is necessary by way of immigrant 
assistance, what is necessary by way of a guest worker program, 
what would happen if we did not have immigrants in this country 
undertaking so many of the jobs.
    And then from his own perspective as an immigrant, he can 
tell us what it feels like to come from foreign shores and to 
become a part of the United States family and be such a 
distinguished citizen. And he can perhaps give us some insights 
as to the problems if we have an 11-million underclass of 
fugitives in this country, what that means to our society as a 
whole.
    So we welcome you here, Mr. Secretary, and we look forward 
to your testimony.
    Secretary Gutierrez. May I proceed with the testimony, Mr. 
Chairman?
    Chairman Specter. Yes, you may proceed. Your full statement 
will be made a part of the record, and the floor is yours.

    STATEMENT OF CARLOS GUTIERREZ, SECRETARY, DEPARTMENT OF 
                   COMMERCE, WASHINGTON, D.C.

    Secretary Gutierrez. Thank you, Chairman Specter and 
Ranking Member Leahy and members of the Committee. I am very 
pleased to have this opportunity to discuss comprehensive 
immigration reform with you, and I want to thank you for your 
leadership and hard work on this important issue.
    I believe that immigration is probably the domestic social 
issue of our time and a key to our future economic health. The 
President has called for comprehensive reform that includes 
protecting our borders and recognizing the needs of our growing 
economy.
    Our reality is that our economy is growing faster than any 
other large industrialized nation. Our unemployment rate is 
below the average of the past four decades.
    Our economy, like other major industrialized economies, 
faces the challenge of an aging and increasingly educated 
workforce.
    The result is that we have jobs today that American 
citizens either are not willing to do or are not available to 
do. I continually hear from industries that they are having 
difficulty finding workers.
    In May, we had 4.1 million job openings in the U.S. with a 
large amount in the hospitality industry.
    As one example, when I was in Texas in June, Alan Simpson, 
president of the El Paso Restaurant Association and the Silver 
Streak hamburger chain, said, ``When the unemployment rate is 
below 5 to 6 percent, it is a real challenge to staff 
restaurants.''
    So immigrants are not crossing our borders to look for a 
handout. They are seeking jobs that are available.
    I am encouraged that we are starting to reach some 
consensus. As you know, more than 500 of our Nation's top 
economists recently sent a letter to President Bush and 
Congress stating that immigration has been a net gain for 
American citizens. And two-thirds of American voters say they 
support bills that include a temporary worker program or path 
to citizenship, rather than one that focuses solely on border 
security.
    President Bush has called for comprehensive immigration 
reform to address the many complex issues involved. Everyone 
agrees that it is essential to secure our borders.
    The President has proposed increasing the number of Border 
Patrol agents from approximately 12,000 to more than 18,000, 
increasing the use of technology at the borders so we know who 
is coming through, and improving processes to become more 
efficient.
    We believe that worksite enforcement is also essential. 
There is an underground industry today built on producing false 
documentation for illegal workers, and employers have a hard 
time helping enforce the law because they are not sure which 
documents are reliable.
    The rules must be clear enough to hold businesses 
accountable, and we must ensure that businesses have the tools 
they need to follow the law.
    We need to create a temporary workers program. It would 
create a legal means for more workers to enter the United 
States for a limited time period to fill labor needs. And by 
providing a legal, enforceable way for immigrants to enter, we 
would take pressure off our borders.
    The President has called for a program to match willing 
immigrant workers with willing employers in jobs that no 
Americans have filled. And we need an expanded employment 
verification system, including biometric card identification 
for the temporary worker program. We have the technology today 
to use a person's unique characteristics, such as a 
fingerprint, to lock in identity.
    When we have an effective employment verification system 
and we have a temporary workers program, the whole dynamics 
will change.
    Over time, it will become very unlikely that people will 
risk their lives crossing the border if it is well known that 
unless you have this temporary worker's permit, unless you have 
this biometric card, you will not find a job.
    These are some of the most consequential things we can do 
to make our borders more secure, and they demonstrate the 
wisdom of comprehensive immigration reform. The biggest thing 
we can do for our border is to have a temporary worker's permit 
for the interior of the country.
    The other reality we must confront is that we have 12 
million people who are in the country illegally. The President 
has said that deporting 12 million individuals would not be 
wise, it would not be practical, and it would not be humane.
    The other extreme of the argument is amnesty. The 
dictionary defines amnesty as an ``unconditional pardon--
obliterating all memory of the offense.'' The President does 
not support amnesty, and it is not accurate or fair to call his 
solution to the problem ``amnesty.''
    We are talking about having a hard-earned path to 
legalization, which would require meeting conditions such as 
people waiting their turn in line--which can take many, many 
years--paying fines, paying taxes, learning English, undergoing 
a criminal background check, and having a job.
    Very importantly, when immigrants take the Oath of 
Allegiance to become American citizens, they give up 
allegiances to other countries. They promise to support and 
defend our Constitution and to serve in our military if 
required.
    The process of becoming a U.S. citizen can take more than 8 
years. Nothing is guaranteed. So immigrants have to make a real 
commitment to this country, and stick it out, to earn 
citizenship and its associated responsibilities.
    The last important point that President Bush makes is that 
we are a Nation of immigrants and we must honor the great 
tradition of the melting pot.
    It is a false choice to think the immigration debate is a 
battle between America being a welcoming society and being a 
Nation of laws. We can be both because we are both.
    The United States' ability to assimilate immigrants is our 
comparative advantage in this global economy. Mr. Chairman, 
many countries today, such as Japan, China, Germany, and 
France, are having significant demographic problems, and they 
are seeing that over time their populations will start to 
decline. And they have more retired workers than they have 
workers able to support those retirees. Interestingly, they are 
turning to immigration to solve their demographic problems, and 
we know, we have seen in the news recently, that they are not 
having much success with immigration. They do not have 
experience with immigration. They do not know how to deal with 
immigration. They do not know how to assimilate immigrants.
    We know how to do that. We have been doing it for 230 
years. Now at a time when this debate has become so intense, I 
believe we need to understand that it is not only an issue to 
be resolved, but it is a tremendous opportunity to give us a 
competitive advantage over the rest of the world. Our ability 
to assimilate immigrants is a capability and a competitive 
advantage that we have that very few countries in the world 
have.
    What we need now is leadership and reasonable compromise in 
the middle of those two extremes. We need to be talking about 
the right mix of immigration reform that addresses all the 
issues.
    An immigration reform bill needs to be comprehensive 
because all elements of this problem must be addressed 
together, or none of them will be solved at all.
    I ask you to commit to comprehensive immigration reform. 
The longer we wait, the bigger the problems we are passing on 
to a future generation.
    If we address the issues effectively, I am convinced that 
our children and grandchildren will be proud of what we did.
    Mr. Chairman, I thank you and I would be pleased to answer 
any questions.
    [The prepared statement of Secretary Gutierrez appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Mr. Secretary. We 
will now begin the 5-minute rounds for members.
    I begin with the central point of the impact on the 
economy. Recently, more than 500 of the Nation's top 
economists, including five Nobel laureates, signed a joint 
letter to the President and Congress stating that immigration 
has a net gain economically for America. Is there any doubt 
that the immigrants contribute to the economy and are an 
indispensable part of having a growing, expanding economy which 
benefits all American citizens?
    Secretary Gutierrez. Yes, Mr. Chairman, the estimates that 
we have seen is that the unemployment rate for undocumented 
workers is actually below the national average, which suggests 
that they come for one reason, and one reason only, and that is 
to work. Approximately--these are estimates--5 or 6 percent of 
our jobs are carried out by undocumented workers. So--
    Chairman Specter. And is their presence here and their 
contribution to the economy a net gain that ripples through to 
the benefit of all the rest of those of us who are in this 
country?
    Secretary Gutierrez. Absolutely. The owners of the 
businesses that have access to those workers in turn become 
consumers, in turn spend money in our economy. They invest in 
their businesses. The immigrants become consumers. There is a 
multiplying effect to our economy that every estimate I have 
seen suggests that is positive.
    Chairman Specter. Moving away from the guest worker program 
to the 11 million, and pardon me for perhaps interrupting, but 
moving to central point--each of us has only 5 minutes, and I 
am going to mind the time meticulously. Moving away from the 
guest worker issue, what is the impact on American society by 
having 11 million undocumented immigrants who become a fugitive 
class and who become an underclass? How does that affect our 
society in terms of a crime problem, in terms of the overall 
texture of American society?
    Secretary Gutierrez. That is a very interesting question. I 
think that when we start getting to the ground level and 
understanding these 11, 12 million people, we are talking in 
many cases of children who are going to school today, because 
those 11, 12 million people have 3 million children. They were 
born here. They are going to school. They probably play Little 
League. They are in the class play. They do not know of any 
other country. They probably do not really realize that their 
parents have this problem with documentation, so they are part 
of the fabric of our society. Estimates that I see suggest that 
over 7 or 8 million of them have been here for more than 5 
years.
    Chairman Specter. How about the impact of living in the 
shadows and being subject to deportation and being an 
underclass and being essentially a fugitive class?
    Secretary Gutierrez. Yes, which does not enable them or 
encourage them to assimilate, to learn English, to be part of 
society. As you say, the more this issue becomes one of 
enforcement only, we are driving them farther and farther 
underground. And what we want, even for our National security, 
is to drive them above the shadows so we know who they are.
    Chairman Specter. Mr. Secretary, now moving to the personal 
level, because you have quite a history as an immigrant, coming 
from Cuba at the age of 7 and becoming the chief executive 
officer and later Chairman of the board of one of America's 
great corporations, you make the point that there is a real 
commitment to this country by the citizens. Senator Leahy talks 
about his own background. We all have a background to talk 
about. And just for a few moments, a few seconds about my 
father, he came here at the age of 18 from Russia. The czar 
wanted to send him to Siberia, and he wanted to go to Kansas. 
And as I jokingly say, it was a close call.
    [Laughter.]
    Chairman Specter. He served in World War I very, very 
proudly, perhaps in the era before we had draft dodgers. Maybe 
he did not know anything about dodging the draft, but he was 
very proud.
    As an immigrant, what is the commitment of the immigrants 
to America?
    Secretary Gutierrez. The feeling, it is hard to describe, 
that when you are welcomed by a society, welcomed by citizens, 
given an opportunity to improve your life, knowing that you 
have to play by the rules and you have to contribute. But once 
you have that, there is an unswerving loyalty to this country.
    I can tell you, Mr. Chairman, I have lost a lot of things 
in my life. I have lost pens. I have lost wallets. I have never 
lost my passport. And for me, that is probably my most prized 
possession. And I know many, many immigrants who feel the same 
way.
    Chairman Specter. Thank you, Mr. Secretary.
    Senator Leahy?
    Senator Leahy. Thank you, Mr. Secretary. I hear my 
grandparents in your voice. I know how much they have talked 
about it. I have gone back many times to the village in 
northern Italy where they are from and met the other relatives. 
And I know how proud my mother was. I know how proud my wife is 
for her citizenship. You have a remarkable story, and I am glad 
to hear your testimony in favor of comprehensive immigration 
reform.
    If the Congress is going to send a comprehensive bill to 
the President's desk--and I think it is safe to say that three 
of us want to--we are going to need the President's active 
participation in the process, because there is a big difference 
between the comprehensive bill that we passed here in the 
Senate and the House where there is strong opposition to a 
guest worker program and path to citizenship.
    Is the President prepared to get personally involved in 
this, to increase his involvement in this issue?
    Secretary Gutierrez. Senator, everything I have seen from 
the President is that he is deeply involved, deeply engaged, 
and providing great leadership in an issue that is of great 
importance for him. I do not want to speak for him, but I know 
that he is very committed and very engaged.
    Senator Leahy. And he is going to have to stay that way. I 
know that in the meeting that Senator Specter and I and others 
had with him, he spoke of his own experience in Texas, and he 
got very--I would say almost passionately involved in this. But 
it is going to require that same kind of passion if we are 
going to be successful in our efforts.
    For example, does the administration support the Senate 
bill as it is written?
    Secretary Gutierrez. Well, I believe that the Senate bill 
is over 700 pages, and the Senate bill, the House bill, there 
are--
    Senator Leahy. Well, maybe let me put it this way: We have 
basically a guest worker program and a path to citizenship. You 
support those concepts?
    Secretary Gutierrez. Yes, the President supports 
comprehensive immigration reform, and that is going to require 
a lot of commitment, a lot of compromise, a lot of dialogue to 
sort out some very complicated issues and come to an agreement 
as to that comprehensive reform that is best for our country.
    Senator Leahy. Well, the reason I ask is that there has 
been some talk about compromise where you do border security 
measures first, and then once a secure border was certified--
which could be years from now--then we could introduce guest 
worker and a path to citizenship.
    Do you support that kind of a one-two step, or do you 
support trying to do both together?
    Secretary Gutierrez. Well, clearly, the proposal from the 
President is comprehensive reform. One of the big challenges is 
how you execute that. How do we execute comprehensive reform? 
That execution can take on a lot of different avenues, but it 
needs to be comprehensive reform. How we execute, which I think 
is one of the big questions, is one of the big challenges, how 
we make it workable, how we execute is something that I would 
hope that we can sort out.
    Senator Leahy. Well, I would hope we can, but I do not 
think you can do one without the other, and I do not think you 
can do one first and the other 1 years later.
    Incidentally, part of the Senate's debate on comprehensive 
immigration reform includes a debate about whether English 
should be an official or a national language of the United 
States. I, along with others, feel that an official language is 
not only unnecessary but fails to recognize the multicultural 
heritage of our country and the legitimate needs of those who 
are learning English.
    I enjoy speaking French with my wife's family, but they 
also all speak English, fortunately, because my French is not 
that good.
    The President has also expressed this belief. Attorney 
General Gonzales has as well.
    Can you tell me if the administration plans to continue its 
support of Executive Order 13166? That is the order that 
improves multilingual access to Federal programs and 
activities.
    Secretary Gutierrez. I believe the administration has 
mentioned that there is support for extending and continuing 
the current law.
    On the English language--
    Senator Leahy. On that one, if I could add just a second 
part to that, and you take the time you need, some members of 
the House of Representatives have expressed opposition to 
Section 203 of the Voting Rights Act which provides bilingual 
ballots. Do you agree with them on that?
    Secretary Gutierrez. As I mentioned, the administration has 
expressed support for the current law as it is written. This is 
interesting because the President has talked about English-
plus, and I hate to get sidetracked on an issue. The President 
has said if you learn English, you can go from cleaning an 
office to running an office; you can go from picking 
agricultural products to owning a restaurant.
    So it is a very positive attitude. No one is against second 
languages. My goodness, I would hope that we would all somehow 
be bilingual. But what we have said is if we can convince 
people, encourage them that the best thing for their future is 
to learn English and to learn it well, I think that is the 
positive message here, is learn English, this is good for you, 
it is good for your future. But as the administration has said, 
we support extending the current law.
    Senator Leahy. Including Section 203 of the Voting Rights 
Act which provides bilingual ballots?
    Secretary Gutierrez. The provisions of the current law, 
yes.
    Senator Leahy. Thank you.
    Chairman Specter. Thank you, Senator Leahy. Under our 
early-bird rule, those first to arrive are taken in sequence. 
Among the Republicans we have Senator Cornyn, Senator Sessions, 
Senator Kyl, and the Democrats, Senator Kennedy and Senator 
Feinstein.
    Senator Cornyn?

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Thank you, Mr. Chairman. Thank you, 
Secretary Gutierrez. It is good to see you again, and thank you 
for visiting with me recently in my office about this important 
issue.
    As I told you then and I will repeat now, I support 
comprehensive immigration reform. As you know, Senator Kyl and 
I introduced a bill almost about a year ago now that addresses 
all of the various components that you have spoken to. And 
while there is some divergence among us here in the Senate 
about some aspects of that, I share your desire and the 
administration's desire to get to conference and try to work 
out those details.
    As a businessman, you are, I know, committed in your 
business operations to actually having a policy that will 
actually work and can be implemented. And I think the biggest 
concern that some of us have is that we put the procedures in 
place, we appropriate the money, we hire the people, we train 
the people, we build the infrastructure that will actually 
allow comprehensive immigration reform to succeed. That is 
certainly my goal.
    I guess what is such a challenge about this issue is that 
people tend to approach it from different perspectives, some 
from a security perspective, and certainly there is that 
essential element, as you have noted; some from a workforce and 
an economic perspective, which you have addressed primarily 
this morning, and it is certainly that as well; some from a 
human compassion perspective, and it certainly is that as well. 
And I believe that we need immigration reform that addresses 
all of those.
    But while I believe that immigrants contribute to our 
society, our culture, and our economy, there are some of my 
constituents who are angry at the Federal Government for what 
they see as the Federal Government's failures to address border 
security concerns and immigration concerns that have fallen on 
them in terms of their financial burdens, their tax burden, 
things like criminals who are housed at our jails and our 
prisons, that the Federal Government does not help pay for that 
housing and that incarceration.
    Health care costs, 25 percent of my constituents in Texas 
do not have health insurance, and a large number of those are 
undocumented immigrants who show up at emergency rooms, and so 
emergency rooms go on divert status where true emergencies have 
to go wherever they can find the help.
    And then, of course, there are education costs.
    In each of those three areas, the Federal Government is 
simply not--it has mandated those costs be borne, for good 
reason, but it has not stepped up and paid for them. And so I 
know you can understand--because I know you were just down in 
Texas talking to a number of my constituents as well, 
understand why people have--while they feel proud of our 
heritage as a Nation of immigrants, while they believe that we 
are better off for it, they are upset with the Federal 
Government's failures in this area.
    Let me just ask you about the--and I would ask, Mr. 
Chairman, I have a statement which I would ask to be made part 
of the record, Mr. Chairman.
    Chairman Specter. Without objection.
    Senator Cornyn. Thank you very much.
    [The prepared statement of Senator Cornyn appears as a 
submission for the record.]
    Senator Cornyn. Let me just, in the minute and 16 seconds I 
have remaining, ask you about the guest worker program. One of 
the important things that has happened as a result of this 
debate on immigration reform is I think people have learned 
that it is a lot more complex, a lot less simple than they 
thought at first, and that simplistic solutions will not 
address our true needs. But I think it is important when we 
have a debate to use terms that are meaningful and not 
misleading, even inadvertently so.
    Sometimes we hear discussion about a guest worker program; 
other times we hear a discussion about a temporary worker 
program. Senator Kyl and I have endorsed in our bill a 
temporary worker program that would be based upon the principle 
of work and return, restoring the circular migration patterns 
that have historically existed between countries like Mexico 
and the United States that we feel would benefit our economy by 
creating a legal workforce that could provide workers, but at 
the same time provide a way for those workers to return to 
their country of origin, should they wish to do so, in a way 
that would allow them to bring their skills and savings back 
home that would help countries like Mexico develop its economy 
and create opportunities there.
    Would you comment on that issue specifically about a guest 
worker program or temporary worker program and how you would 
see that structured?
    Secretary Gutierrez. Well, the way I think about it is a 
TWP, temporary workers program, that is part of comprehensive 
reform, but it is not the only part of comprehensive reform. 
And I believe, as we were talking the other day, that there are 
probably workers who want nothing more than just being able to 
come, work, and go back home.
    One of the problems is that until we clarify the future, I 
believe they have all--they feel a bit reluctant to go back 
home because they are not convinced they will be able to get 
back in. So there is a temporary worker's permit program that 
allows people to work temporarily, go back home, and that is 
probably all they want. But then there is the other side of 
what to do with those who would like a path to legalization 
that have developed roots in the country. And talking about one 
without the other I think misses the comprehensive nature of 
what we are thinking about.
    Senator Cornyn. We have to deal with both.
    Secretary Gutierrez. Yes, sir.
    Senator Cornyn. My time has expired. Thank you.
    Chairman Specter. Thank you, Senator Cornyn.
    Senator Kennedy?

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Thank you, and welcome, Mr. Secretary you 
have an enormously impressive background and experience, and 
you come to this hearing particularly well qualified to talk 
about the economics of the undocumented in our society.
    Let me just add that, as I was listening to Senator Cornyn, 
our comprehensive immigration legislation, recognizes that 
there are responsibilities at the national level to help border 
communities in the areas of enforcement, education and others. 
It is important to know that we have those kinds of provisions 
in the bill. We are hopeful that our President will work with 
Mexico to try to develop a system where there is going to be 
less pressure on the border. We have worked very hard on the 
national security in this area and will continue to do so.
    I wanted to quickly review ``The New Americans: Economic, 
Demographic, and Fiscal Effects of Immigration,'' published by 
the National Research Council. I understand their conclusions 
are very similar to yours. The study found that, overall, an 
immigrant and his family contribute over $80,000 more in taxes 
over their lifetime than they consume in services. Also, every 
census since 1890 found that immigrants are more likely than 
U.S. workers to be self-employed. One analysis has shown that a 
third of all the start-ups in Silicon Valley were founded by 
immigrants and that between 1901 and 1991, 44 of the 100 Nobel 
Prizes awarded to U.S. researchers were won by immigrants or 
their children, and that over 50 percent of engineering 
students in the U.S. and 40 percent of students in the natural 
sciences are foreign born. Most are legal immigrants, but many 
are not.
    Are those observations consistent with what the Department 
of Commerce review has?
    Secretary Gutierrez. Yes, Senator.
    Senator Kennedy. We had an enormously interesting hearing 
in Philadelphia. Mayor Bloomberg talked about what would happen 
to the city of New York if they did not have immigrants working 
there. The undocumented that work there have contributed so 
much to the vitality and the economic strength of New York.
    We know from the Department of Labor that close to half of 
all the new jobs that have been created in this country over 
the last 5 years have been done by immigrants. The economic 
contributions of immigrants are something we ought to know and 
understand.
    I just want to mention how moved I was by your testimony 
regarding the economic issues and the Department of Labor's 
statistics, and also the very powerful testimony that we had 
from General Pace, who is the Chairman of the Joint Chiefs of 
Staff. When he was asked about the performance of immigrants in 
the service, he mentioned the number of Bronze Stars that were 
won by immigrants today in Iraq and Afghanistan. I think it was 
three Silver Stars that were won by immigrants. It might have 
been two, but I think it was three Silver Stars.
    He also commented on the percentage of immigrants that 
completed courses to advance to an infantryman and others were 
actually higher than other troops. Their performance in terms 
of discipline, bravery and courage were equal to any of the 
troops that he commanded.
    Does that surprise you at all?
    Secretary Gutierrez. It does not, Senator.
    Senator Kennedy. And we listened as well to Reverend 
Cortes, heads Esperanza, the evangelical group. He talked about 
their devotion to family, to parents and grandparents, to 
faith, to religion and their willingness to support one 
another. And he talked generally about the contributions 
immigrants are making to their community.
    In your experience, is this something that you have been 
aware of?
    Secretary Gutierrez. Yes, Senator, I have observed that.
    Senator Kennedy. Well, I wanted to thank you as well.
    Secretary Guitierrez, over the course of these hearings, we 
have faced challenges in trying to have legitimate debate and 
discussion. For example, the House Immigration Subcommittee 
will hold a hearing on July 18th and the title of their hearing 
is, ``Should We Embrace the Senate's Grant of Amnesty to 
Millions of Illegal Aliens and Repeat the Mistakes of the 
Immigration Reform and Control Act of 1986?'' I think you have 
helped us understand the economic contributions that immigrants 
make to our country.
    Thank you very much.
    Chairman Specter. Thank you, Senator Kennedy.
    Senator Sessions?

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Mr. Secretary, thank you for coming.
    We appreciate your leadership, and I am certainly a great 
admirer of President Bush and the team he has put together and 
the economic record that you have achieved. And we are 
celebrating some of the good things that have happened as a 
result of that.
    Mr. Secretary, Americans do believe in immigration. They do 
affirm immigrants that are here. They do not hate immigrants. 
All of us have a heritage of immigration. But they are asking 
sincerely, consistently for over 30 years that we create a 
lawful system of immigration.
    You have expressed an affirmation of that, but, frankly, if 
you look at the budget requests of the administration, if you 
look at the prior record of this administration, we have not 
had a serious commitment to a legal system. The US-VISIT 
program, which is so central to what we will do if we are going 
to have a successful legal system, still does not have the exit 
system in place. And I am told that the budget request does not 
include sufficient money for that. That is not in your 
jurisdiction, but I would just share that.
    So the American people are rightly concerned. They saw what 
happened in 1986, and they are rightly concerned that we may 
make that mistake again.
    So I want to say to you and to my colleagues, comprehensive 
immigration reform is absolutely what needs to be done. I have 
felt that it was a complicated process and we should take more 
time to work it out. As we have gone forward, I have found out 
that it is even more complicated than anticipated and is going 
to take even longer, really, to put a system together that we 
can be proud of, that allows immigration into our country, but 
does so in a lawful way in which the United States acts in its 
own legitimate national interest. So I want to share those 
things with you.
    The Senate bill, in my opinion, unfortunately, does not 
meet the test. I am pleased, as I understand the President has 
never explicitly endorsed that bill. It should never become 
law. As I have documented, there are loopholes after loopholes 
after loopholes that just cannot be part of an effective plan. 
So we have a real problem. That is the reality. It is not an 
easy thing to fix.
    I would like you to point out a couple of things. We are 
going to have to deal compassionately with the people that are 
here illegally. I do not dispute that. I do not minimize the 
fact that they came here illegally and in violation of our law. 
That should not be encouraged in the future. But we need to 
treat them compassionately.
    But we need to also talk about the future of our 
immigration policy. How many people does this country and this 
economy actually need and can sustain and assimilate? We need 
to ask what qualities we should look for and whether or not 
language should be a factor in the mission not just the 
citizenship path.
    So I would first ask you, Have you considered and studied 
the Canadian plan, the point system that Canada has? And I met 
with their Immigration Minister recently. They are very proud 
of it. They think it is good. They continue to refine it. But 
they would never alter that plan. There is nothing like that in 
our bill, and I have heard nothing from the administration on 
that subject.
    Secretary Gutierrez. I believe--and I am not an expert on 
the Canadian plan. I believe they have done a great job on 
high-skilled immigration, and they have a certain number of 
requirements. One of our realities, of course, is that as a 
society we have moved on. We have grown. We have taken new 
types of jobs. We are not willing to take the types of jobs 
that we may have been willing to take 100 years ago or 50 years 
ago. So the marketplace needs low-skilled today, as well as 
high-skilled. But a lot of it is what is the marketplace--
    Senator Sessions. Let me interrupt you there. We have had 
serious discussions about this. We had at least one Committee 
hearing that discussed it. I think the pro-immigrant witness, 
Chamber of Commerce or whatever person, agreed--they all agreed 
that low-skilled workers tend to draw more from the economy 
than they put in and high-skilled workers increase benefits to 
the economy. They all agreed with that.
    You have heard of Robert Rector at the Heritage Foundation, 
I suppose, the architect of welfare reform. He says this is not 
going to solve our demographic problems because it is going to 
add to financial burdens because we are bringing in 
extraordinary numbers of low-skilled workers without high 
school degrees.
    When you look at the benefits to the economy, you see that 
those benefits tend to be driven by the immigrants who come and 
have skills that allow them to prosper and get here and reach 
their fullest potential.
    Have you considered that sufficiently? And I would just 
add, other professors that we have had--Professor Chiswick from 
the University of Chicago, Andrew Sum--all say the same thing. 
Have you thought about that?
    Secretary Gutierrez. Well, I would just say, as you know, 
there is a recent letter from 500 economists supporting the 
benefit of immigrants to our society. We need high-skilled 
workers. They make a great contribution. Our marketplace needs 
low-skilled workers as well. Most of the immigrant generations 
that have come to our country have been low-skilled. The first 
generate is low-skilled. But because they come to work, because 
they come in search of a dream, they work very hard to ensure 
that their children are not low-skilled.
    Senator Sessions. I would just say one thing, Mr. Chairman. 
In Mr. Johnson's testimony, whom we will hear in a little bit, 
I was noting his testimony is very, very strong in favor of 
less skilled workers in immigration. He notes, though, 
immigration has raised the average wage of native-born workers 
by 1.1 percent during the 1990s--1.1 percent during the growth 
period of the 1990s. He goes on--
    Chairman Specter. Senator Sessions, how much more time 
would you like?
    Senator Sessions. Thirty seconds. He also adds, ``Among 
native-born workers with a high school diploma or more 
education, wages increased between 0.8 percent and 1.5 percent. 
Among native-born workers without a high school diploma, wages 
declined by 1.2 percent''--during the 1990s.
    Now, my understanding of the law of supply and demand, if 
we have a high demand for labor, why haven't the wages gone up 
more than 1 percent, or even fallen for low-skilled workers?
    Secretary Gutierrez. Well, the statistics I see, Senator, 
show that average household income--and that includes 
everything, benefits, salaries, the impact of lower taxes--has 
increased in real terms by 13 percent since the President took 
office. Our unemployment rate is at record levels below the 
average of the past four decades. More Americans own a home 
today than ever before in our history. The numbers I look at 
suggest that our economy is in a period of prosperity, and we 
have this gap because we are growing, because we are moving on, 
because we have fewer high school dropouts than we did 10 years 
ago, because we are evolving, and we do not have enough people 
to take these low-skilled jobs that our economy needs.
    I think it is one of those simple realities.
    Senator Sessions. Mr. Chairman, thank you very much. But I 
really think you need to study the reality of those numbers 
more carefully, and I do not think they will be as supportive 
of the position you have taken as you may think.
    Chairman Specter. Thank you, Senator Sessions.
    Senator Feinstein?

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman.
    Mr. Secretary, good morning. I would just like to begin 
with a thank you on behalf of the Governors of Oregon, 
California, the Congressional delegations of both States for 
the conference calls last week and for your action on our 
fishing emergency. Very much appreciated. And I think we are in 
pretty good shape in the appropriation bill so far, and we will 
probably move another amendment on the floor. But I want to 
thank you, and thank you for agreeing to call Senator Cochran. 
It is a real problem, as you know, so I want to begin with 
that.
    Secretary Gutierrez. Thank you.
    Senator Feinstein. I want to just share with you my views 
as somebody that represents the State with the largest number 
of immigrants, both legal and illegal, and share with you 
something that Alan Simpson said. Alan Simpson was the Chairman 
of the Immigration Subcommittee for a number of years. Some of 
us had the pleasure of serving with him on this Committee. And 
he said very recently that he felt that one of the big mistakes 
made back in 1986 was that the bill eliminated any national 
identity provision which would have allowed employers to 
quickly identify the legal status of a job applicant.
    I thought a lot about that and made a proposal for an 
orange card, and I want to just spend a moment on it with you.
    I think that the Hagel-Martinez scenario, which I voted 
for, is not really workable because it creates another subclass 
of people, at least 5 million people. And we do not have the 
ability to deport 11 or 12 million. We do not have the ability 
to deport 5 million. And we have industries that are dependent 
on this labor.
    It seems to me that the best way to approach this is with 
an identity document that is biometric, for everybody that is 
in the country now that is working, that you are able to say 
them, This is your identifier, it legally entitles you to work. 
And it is also coded with numbers so that the earned 
legalization takes place, and that those people who are here 
the longest have the opportunity to receive a green card when 
that green card list is expunged, that they pay their fine, 
part of the fine to get the orange card, so they earn it. They 
commit to learn English so they earn it. They pay another fine 
with the green card so they earn it.
    I find one of the most disturbing things in this whole 
battle is this cry that this is amnesty. And it is not. What we 
are trying to do is say people should earn the legalization and 
that you are here, your labor is needed, we want you here, we 
do not want you living in the shadows, but you earn it.
    And if we could only get that across to people, I think in 
an important way, and with that document you can then end the 
document mills. I can tell you places in California where you 
can buy forged Social Security cards, forged green cards, 
forged driver's licenses for as little as $15 to $20. And I can 
tell you, you cannot tell the difference. So for the employer 
it is extraordinarily difficult to know.
    So I proposed this. I did not win it on the floor, but I am 
hopeful that it might be further considered, because I also 
think for security reasons it is important to document and know 
who are in this country. And I do not think you can say to 
people, well, you have to leave and you can stay. You have to 
treat a population as a whole.
    I think the Senate bill is far preferable. I think it needs 
work. It is a very big bill. Some of the visa categories need 
to be cut back on because it is too many new people. But I 
think for the first time we have an opportunity to do this 
balanced bill, and then I think it works.
    Some of us, and I am one of them because my State is so big 
and there are so many people that depend on it, we have this 
huge agricultural industry, the biggest in America, that cannot 
function without this labor. And I am increasingly concerned 
about that.
    Just one other comment, and then I would like to hear your 
thoughts.
    I would be one that would say have the border enforcement 
go into play and have a brief hiatus for the rest of the bill 
to go into play, and then hopefully we can make inroads on the 
border fence, get the additional Border Patrol, the additional 
National Guard people in place--not for certification, but to 
be able to give people on the California, the Arizona, the 
Texas borders some sense of security. I think that is really 
important.
    My State had a proposition in 1994 called Proposition 187. 
It passed overwhelmingly, more than 60 percent of the vote. It 
passed and it was unconstitutional. And I am a very strong 
believer that immigration has to be orderly so that it can be--
the schools can accept people, the workforce can accept people, 
there is housing for people. And in California, if it comes too 
far, too hard--
    Chairman Specter. Senator Feinstein, how much more time 
would you like?
    Senator Feinstein. Oh, sorry. Could I allow him just to 
comment for a few seconds? I did not mean to go on so much.
    Chairman Specter. You have a few seconds, Mr. Secretary.
    Secretary Gutierrez. Thank you.
    Chairman Specter. Take whatever time you need.
    Secretary Gutierrez. Thank you, Senator, and thank you, Mr. 
Chairman.
    Senator, what you said, which I think is so important, is I 
think we have two big challenges here. One is designing a 
system that is comprehensive, that makes sense, and the other 
one is executing it. And if we design a wonderful system that 
is not workable, 10 years from now we are going to say, well, 
either the system did not work or we did not enforce the law. 
But what we will find is that we designed something that was 
not practical. And you are so right. Whatever we do, let's make 
sure it works, that it is practical, that it is pragmatic.
    So the execution, we have a massive challenge in getting 
everyone together to talk about comprehensive reform and 
designing a plan. But then I think the real work starts, which 
is how do we execute. And getting that right I think is going 
to be where we make the difference.
    So I agree, I think you are right on that.
    Senator Feinstein. Thank you.
    Chairman Specter. Thank you, Senator Feinstein.
    Senator Kyl?

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. I will associate myself with the 
remarks that Senator Cornyn made to you. I know that you 
visited, and I am looking forward to visiting with you. But our 
view is that the comprehensive solution is ultimately the only 
way that we are going to resolve all of the problems. And I 
usually talk about four specific things: securing the border, 
enforcing the law--including at the workplace--a temporary work 
program, and dealing with the people who are here illegally. It 
may well be that some of the people who are here illegally will 
go into a temporary worker program. Sometimes there is a 
distinction between future flow, as the term is used, and also 
the people who are here illegally.
    And that is what I would like to get your thoughts on 
because your testimony certainly suggests--and what you just 
said to Senator Feinstein confirms that--you view the employee 
verification system a critical component to the workability to 
whatever comprehensive reform is. And we certainly agree with 
that.
    So the questions have to do with how to deal with this 
problem of document fraud, what kind of document people should 
have to ensure that in the future everyone will be working 
legally. And part of that, it seems to me, has to reflect the 
fact that it is very difficult for employers to be the 
enforcement agencies here, that experience demonstrates that 
you cannot expect some employer to be able to hold up the 
Social Security card and the driver's license and say, well, 
this is fraudulent, and then have the ability to enforce that 
by saying, no, you cannot have a job. It is unrealistic to 
expect that. And that goes to the workability part that you 
talked about. It has got to be a workable program.
    So the employee verification system, it seems to us, needs 
to be simple to use and the determination of validity or 
eligibility should not be on the employer but on the 
Government. And it is really a function of two key things. Does 
the individual have a legal status--citizenship, green card, 
temporary worker under a new temporary worker program, whatever 
that status is? And is the Social Security number attached to 
that a valid number? And, secondly, is the individual standing 
in front of you applying for the job the person who has that 
Social Security number?
    You have suggested that for the temporary worker program a 
biometric identification system would be appropriate and 
workable, and with that I totally agree.
    Here are the two basic questions that I have--and the 
technology is here for the larger employers. You can have, for 
example, a swipe-through easy reader that does not cost that 
much money. Somebody says, well, how about the really small 
employer, you know, the beautician or whatever? Put one in 
every post office. They do not cost that much money, and a 
beautician does not hire that many people in a year, and go 
down and just swipe it through there.
    Anyway, the two key questions are these: With the illegal 
population that is here, many of them are going to be eligible 
for and desirous of participating in a temporary worker program 
along with the future-flow workers. So let's leave aside the 
question of those who are here illegally and not appropriate 
for the temporary worker program--the elderly retired person, 
the young person, whoever may be able to stay here on some 
other conditions, leave aside what those conditions are. And 
then also the individual who goes to the employer and says: I 
am not a temporary worker. I have my--today--fake driver's 
license, fake Social Security card. I don't need a temporary 
worker card. So that person is going to have to be verified, 
too.
    The questions are these: Should all people who apply for a 
job have the same basic document so that we are not 
distinguishing between those who allegedly--or admittedly are 
in a temporary worker program as opposed to those who claim 
they are not? And should the biometric feature be added to that 
particular identification so that all workers would have--all 
employers and workers would have the advantage of that? In 
other words, what is the best way to make it work for all 
people who try to get a job so we are not discriminating 
against anyone, the employer is not discriminating when he asks 
for the identification? Should the documentation be the same, 
in other words, for people who are clearly in the temporary 
worker program, as well as all other employees? And should 
there be any distinction between the people who are here 
illegally today that participate in the program versus the so-
called future flow?
    Secretary Gutierrez. Well, I happened to bring a biometric 
card with me, and my staff just reminded me I had a visual aid 
here. I think the first step is to ensure that we legalize and 
bring out from the shadows those who are here. Those who are 
citizens have a way of proving they are citizens in a legal 
way. What we want to do is eliminate the illegal behavior.
    If we give every temporary worker a biometric card that 
cannot be forged, cannot be tampered, and we make it very clear 
that if you are going to hire someone, a temporary worker, and 
they do not have one of these--and you can verify it. We have a 
national database to verify--that you will be in serious 
trouble as an employer, not a fine, not a slap on the wrist, 
but that there will be a meaningful fine.
    And I think over time the word will spread among 
undocumented workers that, you know, if you do not have one of 
those cards, do not risk it, do not go in under the dark of 
night, do not hire coyote, do not even try to cross the desert, 
because it has become very clear that that system works. And if 
you do not have that card, you are not going to get a job.
    So, ironically, this temporary worker's card is probably 
the single biggest thing we can do for the border. People will 
not cross the border if they know they cannot get employed on 
this side. I think that is the first step to really getting a 
grip on the people who are crossing over.
    Senator Kyl. Mr. Chairman, if I just might follow up, would 
we all have the same type of card, anybody who is applying for 
a job? Because if you just have it for the so-called temporary 
worker, a lot of people may continue to say, ``I am not a 
temporary worker. I am entitled to be here.'' And they do not 
have that card. They still have their counterfeit driver's 
license or Social Security card. And how is the employer to 
make the distinction?
    Secretary Gutierrez. Well, there is a national database. 
There is the Basic Pilot Program, a national database to 
confirm that people are who they say they are. And I believe 
that those who are here legally and those who are citizens and 
those who have the right to work have documentation to prove 
it.
    I think the problem we have it that those who are in the 
country illegally--and that is where we should go. And in terms 
of whether we should expand beyond that, I think that is 
something that can be worked out in the design of the bill. My 
sense is that what is really important is to make sure that 
temporary workers have one of these, and that will make a huge 
difference on the border.
    Senator Kyl. Thanks, Mr. Secretary.
    Secretary Gutierrez. Thank you, Senator.
    Chairman Specter. Thank you very much, Senator Kyl.
    Secretary Gutierrez, thank you very much for your 
enlightening testimony. Senator Kennedy had called attention to 
the title of the hearing in the House next week, which is 
captioned--and I just borrowed this card from him--''Should we 
embrace the Senate's grant of amnesty to millions of illegal 
aliens and repeat the mistakes of the Immigration Reform and 
Control Act of 1986?'' I hope they call you as a witness.
    Secretary Gutierrez. I hope so.
    Chairman Specter. So that you can set them straight that it 
is not amnesty for the reasons you have eloquently testified 
here today, and that we are not repeating the legislation of 
1986, as you have articulated with a sound reason, with a 
biometric card, and that in dealing with the millions of, they 
say, illegal aliens, we are taking the only rational course to 
deal with the problem.
    If somebody has a better idea, we are ready to here it in 
the conference. We would welcome a better idea if somebody has 
one. But you have laid the logic on the line and you have laid 
your experience on the line and your example on the line. And 
for that we are very appreciative. At a minimum, if I find they 
have not invited you to testify, I am going to send them a copy 
of your testimony.
    Secretary Gutierrez. Thank you.
    Chairman Specter. Thank you very much, Mr. Secretary.
    We now turn to our second panel: Mr. Michael Cutler, Mr. 
Benjamin Johnson, Dr. William McDonald, and Mr. Niall O'Dowd.
    Our first witness is Mr. Michael Cutler, who joined the 
Department of Immigration and Naturalization, the Immigration 
and Naturalization Service in October of 1971 as an immigration 
inspector; has worked as a criminal investigator, special 
agent; dealt with organized crime law enforcement. He left the 
INS in February of 2002 and is currently a Fellow at the Center 
for Immigration Studies, a Washington-based think tank; a 
bachelor's degree from Brooklyn College in communications, 
arts, and science, and he has been an expert witness at nine 
Congressional hearings. And among his areas of expertise are 
the nexus between immigration and national security and the 
impact of immigration on the criminal justice system and 
strategies to combat illegal immigration.
    We are especially interested in your testimony, Mr. Cutler, 
as to how we deal with the creation of--or permitting the 
continuation of a 11-million underclass of what essentially are 
fugitives under our existing laws. We appreciate your being 
here, and as you see, the time clock is set at 5 minutes, and 
we look forward to your testimony. Your full statement will be 
made a part of the record, and do not start the clock until Mr. 
Cutler starts to speak.

STATEMENT OF MICHAEL W. CUTLER, FELLOW, CENTER FOR IMMIGRATION 
                   STUDIES, WASHINGTON, D.C.

    Mr. Cutler. Thank you, Mr. Chairman. One second. I think I 
have the wrong paperwork. I am sorry about that.
    Chairman Specter. Take your time. It will be faster.
    [Pause.]
    Chairman Specter. Reset the clock, please.
    Mr. Cutler. Okay. Thank you for your forbearance.
    Chairman Specter, Ranking Member Leahy, members of the 
Committee, ladies and gentlemen, it is an honor and a privilege 
to be afforded the opportunity to testify before this Committee 
on an issue that is arguably among the most critical issues 
confronting the United States today. So many areas of concern 
are inextricably linked to illegal immigration that when we 
seek to regain control of our Nation's borders and restore 
integrity to the immigration system, we will be impacting 
everything from the economy, education, the environment, and 
health care to criminal justice and national security.
    As I have stated at previous hearings at which I have 
testified, ``A nation without secure borders can no more stand 
than can a house without walls.'' It is important, however, to 
understand that our Nation cannot gain control of its borders 
until and unless we recognize that we need to do more than 
focus on the borders of the United States. We need to think of 
immigration as a system of many components, all of which are 
critical to the success of the others. A well-designed airplane 
that is missing a wing will not get off the ground. In order to 
soar into the sky, all of the components of the airplane must 
function properly. So, too, all of the components of the 
immigration system must be made to work effectively and in 
coordination with the other elements of the immigration system.
    It has been estimated that approximately 40 percent of the 
illegal aliens who are present in the United States today did 
not run our borders or evade the Border Patrol but, rather, 
strolled through a port of entry and then disappeared into 
communities throughout our Nation. The terrorists who attacked 
our Nation on September 11, 2001, in fact, all entered the 
United States through ports of entry and then counted on their 
ability to evade detection by the former INS. While much 
attention has been paid to the lack of secure borders, little 
attention has been paid to the need to have adequate numbers of 
special agents for ICE enforcing the immigration laws from 
within the interior of the United States. At present, there are 
roughly 3,000 special agents employed by ICE carrying out this 
critical mission. ICE needs to do more than enforce the laws 
that prohibit an employer from knowingly hiring illegal aliens 
and seeking to apprehend the hundreds of thousands of alien 
absconders. Clearly, these two missions are important, but when 
you consider the fact that according to a recent GAO report on 
the crisis at USCIS this is a major vulnerability that 
threatens national security but is not being addressed. ICE 
needs to work in close coordination with USCIS to make certain 
that the system by which various immigration benefits, 
including the granting of resident alien status, and United 
States citizenship has real integrity. The ``9/11 Commission 
Staff Report on Terrorist Travel'' noted the fact that in order 
to attack our Nation, the terrorists not only needed to first 
gain entry into our country, an obviously critical issue, but 
they also needed to be able to embed themselves in our country 
and have the ability to travel around the Nation and across our 
borders as they prepared to attack us. When the United States 
provides an alien with resident alien status or when we 
naturalize an alien, we are providing him or her with the ``key 
to the kingdom.''
    If we were able to make the borders of the United States 
utterly impassable to illegal aliens but then do little, if 
anything, to detect and combat immigration benefit fraud, 
thereby providing immigration benefits to aliens who are not 
entitled to such benefits, we as foolishly as the homeowner 
who, fearful of having his home burglarized, invests 
considerable effort and money on buying strong doors and locks 
for his doors and windows and takes other such measures, but 
then hangs the key to the secure locks on the outside doorknob, 
making it simple for anyone passing by to gain entry to that 
house.
    The huge illegal alien population present in the United 
States has a significant impact on the criminal justice system 
and on national security as well. While it is extremely 
difficult to provide a firm number as to the number of illegal 
aliens who are involved in serious criminal activities in the 
United States, I believe we can get a sense of the magnitude of 
the problem by considering statistics that I am familiar with. 
At present, it is estimated that some 30 percent of the inmate 
population in Federal correction facilities are identified as 
being foreign born. From 1988 until 1992, I was assigned as the 
INS representative to the Unified Intelligence Division of DEA 
in New York. I conducted a study of DEA arrest statistics and 
found that nationwide some 30 percent of the defendants 
arrested by DEA for crimes related to narcotics trafficking 
were identified as being foreign born, while in New York it was 
estimated that nearly 60 percent of the defendants apprehended 
by DEA were identified as foreign born. Those statistics 
remained constant for more than 5 years, and the 30-percent 
figure back then is virtually the same today as it was then. 
Additionally, a GAO report issued in April of 2005 found that 
in 2004, 27 percent of the Federal inmate population was 
comprised of criminal aliens. And the same report pegged the 
cost to the Federal Bureau of Prisons for incarcerating 
criminal aliens at some $1.2 billion. This same report found 
that on the local and State level for fiscal year 2003, some 
147,000 criminal aliens were in custody.
    Additionally, there have been studied that show a 
relationship between a wide variety of crimes that are 
committed to support terrorism. Drug trafficking in particular 
has come to be associated with this fund-raising objective, but 
other crimes, including mail fraud, arson, and identity theft, 
also help fill the coffers of terrorist organizations and 
organized crime groups. Often aliens who come to the United 
States fleeing not only the grinding poverty and perhaps 
tyrannical government of their homeland often find that when 
they come here they also encounter the same criminals who were 
preying upon them in their home countries.
    It is also worth considering that when you have a large 
illegal population, a series of businesses spring up in the 
communities that support that population that is not only 
helpful to the illegal alien who is simply looking to get a job 
in the United States, but also to members of organized crime 
groups, violent gangs, drug-trafficking organizations, and, 
indeed, terrorists. And among these enterprises are money 
remitters, private mail box services, and fraudulent document 
vendors. It is also important to understand that in an effort 
to hide in plain sight or embed themselves in our country, 
criminal aliens and terrorists often take relatively pedestrian 
jobs to help pay their day-to-day expenses and to provide 
themselves with an effective ``cover''--
    Chairman Specter. Mr. Cutler, how much more time will you 
need?
    Mr. Cutler. Just about another 30 seconds, sir. I am sorry.
    The thing to remember is that someone once said that an 
effective spy is someone who would not attract the attention of 
a waitress in a greasy spoon diner. You could expand on that 
statement and state that an effective terrorist is also 
somebody who would not only not attract the attention of the 
waitress in a greasy spoon diner but might be that waiter or 
waitress.
    That is why it is important that ICE not only focuses on 
seeking to find illegal aliens who are employed at supposedly 
high-value secure venues, such as airports and nuclear power 
plants, but also as a matter of routine to enforce immigration 
laws on a random basis.
    The final thing that I want to say is I also believe we 
need to have better foreign language training skills given to 
our agents who are enforcing the immigration laws throughout 
the United States.
    Chairman, I want you to know that I think that legal 
immigration is a wonderful thing for our country. It is 
wonderful for the aliens who come here and America gains by it. 
My concern is that we have many illegal aliens whose identities 
are unknown to us and whose purposes are unknown to us, and 
that is what keeps me awake at night.
    I look forward to your questions.
    [The prepared statement of Mr. Cutler appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Mr. Cutler.
    Our next witness is Mr. Ben Johnson, Director of the 
American Immigration Law Foundation's Immigration Policy 
Center. He has been in the field for some 15 years. He has 
written extensively on the police and the challenges of illegal 
immigration; has his law degree from the University of San 
Diego and studied international comparative law at Kings 
College in London.
    We appreciate your being with us today, Mr. Johnson, and 
the floor is yours.

  STATEMENT OF BENJAMIN JOHNSON, DIRECTOR, IMMIGRATION POLICY 
 CENTER, AMERICAN IMMIGRATION LAW FOUNDATION, WASHINGTON, D.C.

    Mr. Johnson. Thank you, Mr. Chairman and members of the 
Judiciary Committee, for this opportunity.
    The current immigration debate is over how we respond to an 
immigration system that everybody acknowledges is broken. The 
question in Congress has come down to this: Do we pursue an 
enforcement-only strategy and focus only on the best way to 
keep people out? Or do we adopt a more comprehensive approach 
that includes new enforcement strategies but also improves our 
ability to let people into the country legally? I would argue 
that for the last 15 years, we have been trying the 
enforcement-only strategy, and it has been an utter failure.
    Since the early 1990s, the border enforcement budget has 
more than quintupled. It went from about $600 million to now 
spending more than $4 billion a year on border enforcement. 
During the same time, the number of border agents has nearly 
tripled. And what do we have to show for that? The pace of 
undocumented immigration to the United States has increased. 
Apprehension rates are down. More people are dying every day at 
our Southern border. And the business of human smuggling and 
document fraud has been transformed from a relatively small 
operation into a billion-dollar enterprise.
    Now, I would agree completely that an enforcement strategy 
has failed in large part, or at least in part because we are 
fixated on fortifying the Southern border and have ignored 
other critical components to the immigration enforcement, like 
an effective employment verification system or the need for 
more personnel and training to deal with the delays and 
backlogs at various immigration offices. But even with 
significant improvements in our enforcement strategies and our 
adjudication capabilities, stanching the flow of undocumented 
immigration will remain a Herculean task unless and until we 
reform the legal channels for admitting people into the country 
legally.
    The bottom line is that immigration is not just a law 
enforcement issue. It is a valuable resource to our economy and 
our labor force, and we have to start treating it like a 
resource and managing it on an ongoing basis. The ability to 
use our immigration system to supplement and fill gaps in our 
labor force across the skill spectrum is one of the principal 
reasons the United States has been able to create the most 
diverse, most dynamic, most flexible workforce the world has 
ever seen.
    In the last 15 or 20 years, our economy has been radically 
altered because of the high-tech globalized world that we live 
in. In response to this, Congress has made dramatic changes to 
our trade policies, our banking policies, our 
telecommunications policies. But Congress has yet to make a 
concerted effort to align our immigration policies with this 
new economic environment. In fact, in many areas we are going 
in the opposite direction. While more and more countries are 
spending billions of dollars to attract foreign studies and 
high-skilled workers, the United States is making it more 
difficult for foreign students to enroll in U.S. universities, 
more difficult for highly skilled immigrants to come to the 
United States.
    And at the other end of the skill spectrum, where we have 
undocumented immigration, there has been a lot of controversy 
over whether in this new economic environment there are some 
jobs Americans are less interested in and whether we need 
immigrants to fill these jobs.
    But the truth is it is not an insult to the American worker 
that we have fewer and fewer people in our labor force who are 
in the market for jobs that require very little education or 
training. Our labor markets are attracting younger, less 
educated immigrant workers because our labor force is getting 
older and it is getting better educated. In the early 1960s, 
over half of U.S. workers were high school dropouts. Today, 
only about 15 percent of U.S. workers are high school dropouts. 
We should be proud of that fact, but we have to recognize that 
this success means we have fewer workers who are looking for 
jobs that require no education or training. So we are doing 
what we have always done. We are turning to our immigration 
system to fill the gaps in those labor markets.
    Unfortunately, while we have been encouraging workers to 
get an education and improve their skill sets in this new 
knowledge-based economy that we are creating, we have not been 
creating more channels of legal immigration to replace those 
workers. Today, in a labor force of over 150 million workers, 
we have 5,000 permanent visas available for foreign workers in 
less skilled occupations. We can debate about how many workers 
we need in this country, but 5,000 is nowhere near the kind of 
demand that this economy generates in less skilled workers. And 
outside of agriculture, the only temporary visa we have for 
less skilled workers, the H2B visa, is only available to 
seasonal employers. For companies that employ less skilled 
workers and operate year-round, we have no temporary worker 
program for foreign workers.
    So, because essentially we have no legal channels of 
employment-based immigration for these workers, they either 
come illegally or they attempt to come through the already 
overburdened family-based system, a system that already 
requires people to wait 5 to 7 years to be joined with their 
spouses and children.
    In this environment everybody loses. Families are 
separated, and workers are expected to wait years for jobs that 
are available today. Nobody should be surprised that when we 
close the front door on these families and workers, they look 
for a way in the back door.
    The real challenges we face today stem from the fact that 
we send two message at our border: ``Help Wanted'' and ``Keep 
Out.'' And the byproduct of this schizophrenia is that law 
enforcement agencies, businesses, and families are stuck 
between a rock and a hard place. In short, we have created an 
unsustainable contradiction between U.S. economic policy and 
U.S. immigration policy, and economics is winning. We can 
either continue to spend billions of dollars in an immigration 
enforcement battle with our own economy and our own labor 
force, or we can create an immigration system that is not only 
good at keeping people out but effective at letting people in.
    Thank you.
    [The prepared statement of Mr. Johnson appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Mr. Johnson.
    Our next witness is Mr. William McDonald, Georgetown 
University Professor of Sociology and Anthropology, and Deputy 
Director of the Institute of Criminal Law at their Law Center. 
He has written extensively in the field of immigration and 
crime control. His educational background is a bachelor's 
degree from Notre Dame, master's in education from Boston 
College, and a doctorate in criminology from the University of 
California at Berkeley.
    Thank you very much for joining us today, Dr. McDonald, and 
we look forward to your testimony.

 STATEMENT OF WILLIAM F. MCDONALD, PROFESSOR OF SOCIOLOGY AND 
 ANTHROPOLOGY, AND CO-DIRECTOR, INSTITUTE OF CRIMINAL LAW AND 
 PROCEDURE, GEORGETOWN UNIVERSITY LAW CENTER, WASHINGTON, D.C.

    Mr. McDonald. Chairperson Specter and members of the 
Committee, it is an honor to be here today. I would like to 
point out for members of our audience that I am an Irish 
American.
    I have been studying the connections between crime and 
immigration since 1996, and I was informed the other day, when 
I was asked to speak, that it would be useful if I would touch 
upon several issues, only one of which I think I have time to 
address, and that is, statistics regarding the criminality of 
illegal immigrants. But first I would like to make some general 
observations.
    Although we are a Nation of immigrants, Americans have 
always worried about the criminality of the next wave of 
immigrants. There have been many studies in the United States 
and abroad that have addressed the question of the criminal of 
immigrants. And while they are by no means unanimous, there is 
a remarkable degree of agreement among them regarding one 
important finding: the criminality of the first generation of 
immigrants, those who actually migrate, is less than the 
criminality of the native born. Public fears about immigrant 
criminality have usually not been borne out by research.
    I mention this literature on immigrant criminality because 
there is little reason to believe that the findings would be 
substantially different for illegal immigrants, assuming that 
the data were available, that would allow us to make the 
necessary statistical controls for age, sex, economic status, 
and immigrant status to do a valid study.
    Because of the difficulties of getting proper data, studies 
of comparative criminality of illegal immigrants are rare and 
inconclusive. Anyhow, the critics of illegal immigration are 
not interested in knowing whether illegal immigrants are more 
or less criminally inclined than the native born. For them, any 
crime committed by an illegal immigrants represents a crime 
that would not have happened if the Government had been in 
control of immigration.
    I turn now to the question of the statistics on illegal 
immigrants who commit crimes. In 1989, the Immigration 
Subcommittee of the House Committee on the Judiciary asked the 
Immigration and Naturalization Service the following question: 
What percentage of the individuals incarcerated in specific 
cities are illegal aliens? The answer was simply: We do not 
know; the data do not exist in anything like usable form. And 
since that time, things have not really gotten much better.
    Before proceeding, I must warn you of a terminological 
quagmire that surrounds this issue. There are technical legal 
definitions involved that cause confusion. The basic 
distinction to keep in mind is between criminal aliens and 
illegal immigrants who commit crimes. Criminal aliens have been 
around since the beginning of the country. They are noncitizens 
who have committed crimes, either before or after they have 
entered the United States. Illegal immigrants did not exist 
until the Federal Government began regulating immigration in 
the 1870s.
    Not all criminal aliens are illegal immigrants. A legal 
immigrant who commits a crime while in the United States 
becomes a criminal alien. Some criminal aliens are deportable, 
depending upon the crime they have committed. In the late 1980s 
and 1990s, responding to complaints from the States about 
increasing numbers of criminal aliens in State and local 
prisons, Congress added to the terminological confusion. In 
1986, it mandated the INS to conduct expeditious proceedings 
for aliens convicted of deportable criminal offenses. In 1988, 
it created a new category called ``aggravate felon.''
    In 1994, it introduced the concept of ``undocumented 
criminal aliens'' in connection with legislation to reimburse 
the States for the costs of housing illegal criminal aliens. 
This reimbursement was only for the costs of housing illegal 
criminal aliens incarcerated in State and local prisons, not 
for legal criminal aliens. Only the former were regarded as the 
Federal Government's responsibility.
    It was in that connection that a few studies were done to 
try to estimate the number of illegal criminal aliens in State 
and local facilities. The Urban Institute did a major study and 
came up with some references.
    The kind of estimates that the Urban Institute produced 
have not become institutionalized in any of the annual reports 
of which I am aware. The Bureau of Justice Statistics produces 
an annual report on the number of inmates in prisons but does 
not mention anything about this. The Office of Immigration 
Statistics of the Department of Homeland Security publishes an 
annual report, does not mention anything like this. We simply 
do not have that data available to us,
    Finally, when studies have looked at deportability, they 
find many criminal aliens are not deportable.
    Thank you very much.
    [The prepared statement of Mr. McDonald appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Dr. McDonald.
    Our final witness is Mr. Niall O'Dowd. He came to the 
United States in 1979 and soon began his first business, an 
Irish-American newspaper in San Francisco. In 1985, he moved to 
New York where he founded the Irish American Magazine and later 
the Irish Voice newspaper. In 1992, he founded a group called 
the Connolly House Group, which has been involved in the Irish 
peace process. He has been awarded an honorary doctorate from 
his alma mater, University College-Dublin, in recognition of 
his work on Irish issues in America.
    We appreciate your being here, Mr. O'Dowd, and look forward 
to your testimony.

 STATEMENT OF NIALL O'DOWD, FOUNDER AND CHAIRMAN, IRISH LOBBY 
           FOR IMMIGRATION REFORM, NEW YORK, NEW YORK

    Mr. O'Dowd. Thank you very much, Chairman. My name is Niall 
O'Dowd. I am Founder and Chairman of the Irish Lobby for 
Immigration Reform. I am also founder and publisher of Irish 
Voice newspaper and Irish American Magazine, the two largest 
Irish American publications.
    I am a native of Ireland, once undocumented, but now a very 
proud American citizen.
    I have lived the immigrant dream in America since coming 
here in 1979. I started a newspaper with less than $1,000 in 
1979 in California and made a success of it. Currently, I 
employ 22 people in New York City running both my companies.
    But I come here representing the 50,000 Irish undocumented 
in the United States and the millions of Irish-Americans who 
are looking for a resolution to this issue.
    Since the inception of the Irish Lobby for Immigration 
Reform last December, we have held scores of public meetings 
across the United States attended by thousands and have held 
two lobbying days in Washington, D.C. A total of over 5,000 
Irish-Americans from across the United States came to 
Washington for both lobbying days.
    The facts are clear to us. Without immigration reform, the 
Irish-born community in the United States will no longer exist, 
and one of the greatest contributors to the success of this 
Nation will be no more.
    Our neighborhoods are disappearing. Our community 
organizations are in steep decline. Our sporting and cultural 
organizations are deeply affected by the lack of legal 
immigration.
    Meanwhile, our undocumented community is under siege. They 
can no longer travel to Ireland, even when family tragedies 
occur.
    Their driver's licenses will not be renewed, which means 
mothers cannot drive their children to school. The day-to-day 
struggle of living illegally in America has taken a heavy 
personal toll on them. I submit that they deserve better.
    Everything they have worked years for in America, building 
their own American dream, is now falling around them, and I 
submit that America will be the big loser.
    I know that hundreds of these immigrants, Irish 
construction workers, worked with little more than their bare 
hands to try to uncover bodies at Ground Zero after 9/11.
    Irish labor union members and construction crews were among 
the first on the scene, and they tried frantically to save 
lives working alongside rescuers who included thousands of 
Irish American fire and police workers.
    No one was calling them Irish illegals then.
    They did no more than previous Irish generations. As 
President Bush has stated, ``Throughout our history America has 
been greatly blessed by the innumerable contributions of the 
Irish.'' Unfortunately, the contribution of Irish-born may be 
about to end.
    If the Irish antecedents of Andrew Jackson, John F. 
Kennedy, or Ronald Reagan were trying to enter the United 
States today, they would have to do so illegally.
    The sad reality is that there is simply no way for the 
overwhelming majority of Irish people to come to the United 
States legally at present.
    So when people say to me that the Irish should get in line 
to come here, I tell them there is no line we can join. There 
is no way the vast majority of our people can come legally to 
America.
    The figures for the Irish bear this out. Of the almost 1 
million green card visas given out last year, about 2,000 went 
to the Irish. Since 1995, in the diversity visa program, which 
was intended in part to help old seed countries, Ireland has 
been successful in obtaining one-half of 1 percent, or 2,800 
visas out of over half a million.
    Such realities, however, have not stopped thousands of 
Irish doing what generations have done since they served in 
George Washington's army--coming to America and living the 
American dream like generations before them.
    I can tell you about Mary, who is 36, whose brother was 
killed in a car crash a few months ago, and she had to listen 
to his funeral down a phone line because she cannot go home and 
grieve with her family. She is now a registered nurse, a proud 
homeowners, and intends to marry soon. Hospitals would snap her 
up in a moment if she became available. She deserves her 
American dream.
    Then there is Brian, who is 32, a contractor, who was among 
the first to go to Ground Zero because he was working nearby. 
Brian continues to believe in his American dream. He has six 
Americans working full-time for him, and he looks forward to 
the day he can take his new wife back to Ireland and meet the 
families they have not seen for years.
    Eamon, who is 38, came over from Armagh in Northern Ireland 
14 years ago. There were no jobs in his town because of the 
Troubles, and the only recruiting was being done by 
paramilitaries. Here Eamon now runs his own roofing company and 
employs six persons legally.
    So many others I know have grandchildren their grandparents 
have never seen or live in daily fear of being deported or, 
worse, a family tragedy back in Ireland which could end their 
lives here.
    These are typical stories of the Irish undocumented here in 
America. They ask for just one thing--the opportunity to live 
their American dream like so many generations of Irish before 
them.
    My deepest desire, and that of millions of Irish-Americans 
around this great country, is that their wish can be granted. 
With your help I believe it can.
    Thank you very much indeed.
    [The prepared statement of Mr. O'Dowd appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Mr. O'Dowd.
    We now begin the 5-minute rounds of Senators' questioning, 
and beginning with you, Mr. Cutler, you gave statistics as to 
the foreign born, but did not indicate any breakdown between 
those who had legal status as citizens contrasted with those 
who were illegal immigrants. Do you have any breakdown of that 
or any judgment as to how that would break down?
    Mr. Cutler. Well, it is interesting because Professor 
McDonald made the same point. In all of my research--and I have 
reached out to other organizations and analysts and so forth--
incredibly, our Government does not track that statistic, and I 
think it is an important issue, because this is a measure of 
one of the resources that we need for effective immigration 
enforcement, and yet there is no delineation.
    Chairman Specter. Mr. Johnson, you testified that we have 
had 15 years of just an enforcement strategy and little result. 
The title of the House hearing for next week talks about the 
failure of the 1986 employer verification system, but they did 
not have the technology which is available today. And the 
statistics show that only four enforcement actions were 
initiated last year, so that there has not been much of an 
enforcement policy to judge what could happen.
    Contrast what this legislation coming out of the Senate has 
with respect to Border Patrol, some fencing, some virtual 
fencing, employer verification. Wouldn't the projection be that 
it is going to be effective if carried out and implemented as 
directed in our Senate legislation?
    Mr. Johnson. Yes, the Senate legislation is nothing like 
the 1986 Act. The failure of the 1986 Act was that it dealt 
with or attempted to deal with a population, the undocumented 
population that existed at the time, but it did nothing to 
respond to why that undocumented population had been created. 
It did nothing to provide a way for workers to come into the 
United States legally, particularly less skilled workers. It 
did not do anything to provide a temporary program for those 
workers to come in. It did not do anything about providing more 
permanent green cards for those workers to come in.
    The solution was we will grant some folks an amnesty and 
then we will expect employers to be enforcement agents, and 
that strategy will not work. You need to have improved channels 
of legal immigration, and I think the Senate should be 
commended for recognizing that and trying to develop an 
immigration policy that will assure we will not create another 
pool of undocumented immigrants 10 years from now.
    Chairman Specter. Dr. McDonald, I am not suggesting in the 
inquiries about crime that immigrants are any bigger burden 
than anybody else when it comes to criminal conduct. What we 
are looking for here is some judgments as to how we deal with 
11 million undocumented immigrants and whether we do not 
relieve some of the pressures on law enforcement if they are 
motivated to come out of the so-called shadows, if they are not 
a fugitive class, and if they are recognized as being in a 
position to earn status as a guest worker, maybe going back, or 
if we expand the number of green cards, get on the citizenship 
line, albeit at the end of the line.
    What would you say about the Senate bill and trying to deal 
effectively with eliminating this underclass and fugitive 
class?
    Mr. McDonald. Well, that is a difficult question that goes 
beyond the more focused question about criminality. I would 
like to restrict my remarks to that part of the issue. I admire 
what that--I am not an expert on the immigration law. It does 
appear to me that this bill is not the same as the IRCA bill in 
1986, and the biometric measures seem enticing. What worries me 
is the huge number of small-time employers of illegal 
immigrants, just neighbors who hire them to do the lawn and 
things like, they are never going to use the biometric 
measures.
    Chairman Specter. Dr. McDonald, let me interrupt you 
because I want to ask one question of Mr. O'Dowd before my time 
expires. You cited two very prominent men--President John 
Kennedy and President Ronald Reagan.
    Mr. O'Dowd. Yes.
    Chairman Specter. I know your views that our country has 
been immeasurably strengthened by the immigrants. Would you 
care to expand upon that?
    Mr. O'Dowd. Well, I think that if you look at any area of 
American life, the Irish-Americans have contributed greatly. 
Eugene O'Neill, people like that have contributed so much to 
the arts and theater here.
    I think the fact is that, from our point of view as a 
community, it will be America's great loss if Irish-born people 
can no longer come to America legally, and it is something that 
I know you have seen the people here who have come all the way 
from New York this morning. They went to Miami last week. They 
are people who feel very, very, very strongly about this issue 
that the Irish-born people who have contributed so much in this 
country should not be prevented from coming here legally. 
Unfortunately--and I do not think that was the intent of the 
laws, but that is the effective nature of the law right now.
    Chairman Specter. Thank you very much.
    Senator Kennedy?
    Senator Kennedy. Thank you very much and welcome. I want to 
just take a moment to personally welcome Niall O'Dowd. For all 
of us who are mindful of Northern Ireland's enormous progress, 
its reduction of violence, and its desire to move from the 
bullet to the ballot, we must recognize this gentleman here, 
who was absolutely indispensable in bringing peace to Northern 
Ireland. You all acknowledged the great role that our friend 
and former colleague, George Mitchell, played, but Niall was an 
enormously important figure as well, in the earliest days of 
developing the ceasefire and the support for the figures that 
demonstrated courage at a key point in the evolution. We are 
still hopeful that those institutions that were established at 
the time of the Good Friday Agreement are going to be up and 
running so that we are going to have the beginning of real 
democracy in the North. I know you could talk about that as 
well, but we will do that at another time.
    The depth of his support is well understood by all of us on 
this Committee. We welcome our good friends here today, and 
thank them for joining us. They joined with us in Philadelphia 
and they joined with us in Miami. I do not see many of the 
Miami group here, but I cannot let the moment go by without 
welcoming Kelly Fincham as well, and thank her so much for all 
that she has done.
    We have seen dramatic changes in immigration law. Prior to 
the 1965 Act, we had about 30,000 Irish that were coming into 
the U.S. Those numbers dropped to about 20,000 afterward. The 
1986 Act was really something different. That Act focused on 
those that were here undocumented and employer sanctions, 
something I never thought was going to work and voted against.
    What we were trying to do in the 1965 Act was to eliminate 
discrimination that existed in the law. However, way that that 
legislation was developed worked in a very dramatic and 
significant way against the Irish.
    Now, we are seeing the elimination of the diversity 
program. There were only several hundred that took advantage of 
the diversity program last time, and now we are changing it 
from requiring a high school education to requiring a much 
higher degree of academic achievement and accomplishment. In 
other parts of the bill we provide visas to the highly educated 
and this change will reduce access to the program.
    I am going to be short on the time, unfortunately, but 
could you tell us, Niall, a little bit about how people feel, 
first of all, about the criminalization of immigrants. We have 
heard a good deal about this issue. What is your sense about 
the extent of the criminality in immigrant communities, the 
commission of serious crimes, the abuse of the welfare system, 
failing to play by the rules? I would like you to talk about 
that. I have another question and only a couple minutes left 
here.
    Mr. O'Dowd. Well, briefly, there is not a single person I 
know in the Irish community who is against having a secure 
border in America. There is almost, I imagine, no criminality 
in the community itself that I would know of. Irish people that 
come to America come here to work, and they come here to build 
a life and build their own American dream. So I think they are 
not direct issues that affect them as much. But I think overall 
that they feel very strongly that a lot of the statistics are 
hyped up to make this seem a lot worse than it is in terms of 
the contribution of illegals or of undocumented Irish to this 
country.
    Senator Kennedy. Let me ask you to talk about how it feels 
to be undocumented. I am interested in the fear of deportation, 
the separation of family, the real dangers of depression and 
sense of desolation. What does this do to individuals that are 
attempting to be a part of the American dream, to play by the 
rules, to make a contribution, and devoted to their religion 
and members of their family?
    Mr. O'Dowd. I think it is a devastating thing. We had a 
case, as I mentioned here, of Mary, who is one of our chief 
operators at the Irish Lobby for Immigration Reform. Her 
brother was killed in a car crash in Ireland about 3 months 
ago. She could not go home. She has made her life here. She has 
been here 16 years. She is a registered nurse. She had to 
listen to her brother's funeral down the phone line, and you 
can only imagine the impact that had on her and her family at 
home.
    That is, unfortunately, an all too common theme. People are 
waiting for that dreadful phone call from Ireland that someone 
has died or that their parents are ill. We have numerous cases 
where people have to make a horrific decision between staying 
here and keeping their hope alive of living the American dream 
or having to go back to Ireland and basically end everything 
here because of a family emergency. And these are people, as 
you say, who have made huge contributions to this society.
    I go back to Ground Zero. We figure there were about 300 
Irish construction workers who went to Ground Zero that 
morning, who spent the next 7 or 8 days digging up bodies, 
helping as much as they could. And the point I made was nobody 
was calling them illegal then because of what they did. And I 
think if you look at the number of Irish who died at Ground 
Zero, you will see what a great tradition and a heroic 
tradition they represented.
    Senator Kennedy. Thank you. My time is up.
    Chairman Specter. Thank you, Senator Kennedy.
    Senator Sessions?
    Senator Sessions. Thank you very much. As we go forward, I 
think the concerns that the American people rightly have and I 
have is many of these complex questions are not amenable to 
being settled in a secret conference Committee appointed by the 
leaders of both Houses without much or virtually any input from 
the American people in the process. So I am very nervous about 
that. That is why I think that this hearing and the one you had 
previously, Mr. Chairman, was good. It allows us to discuss 
some of the complex issues.
    Mr. O'Dowd, you make some points here that I am surprised 
at. You said if John F. Kennedy or Ronald Reagan or Eugene 
O'Neill were trying to enter the United States today, they 
would have to enter illegally. You say, ``The sad reality is 
that there is simply no way for the overwhelming majority of 
Irish people to come to the United States legally at present,'' 
and that out of a million green cards given out last year, only 
2,000 went to Irish. Why? Why don't we fix that? I tell you, 
there is nothing in this bill that fixes that.
    Mr. O'Dowd. No.
    Senator Sessions. So what could we do to draft a 
comprehensive bill that would allow people with the family and 
historical connection to have a better chance, some better 
chance than this to enter the United States?
    Mr. O'Dowd. I think my organization is primarily concerned 
right now with the undocumented Irish who are here, and 
certainly the Senate bill would work very much in their favor.
    Senator Sessions. Well, we have got to get beyond just that 
problem. We are going to treat those people that came illegally 
somehow in a compassionate way. I am not sure what we are going 
to do, but we are going to do something.
    Mr. O'Dowd. Right.
    Senator Sessions. But we have got to think about drafting a 
comprehensive bill. Let's draft one that is comprehensive, that 
deals with the problems that you just raised. Now, you tell me 
how we want to fix that. Do not be just a team player now with 
the crowd. You tell me what you can do.
    Mr. O'Dowd. Well, I think up until 1965, obviously, 
Europeans were able to emigrate legally to the United States in 
much higher numbers than they are now. And, clearly, if you 
have a specific plan, like there was in the late 1980s--there 
was what was called ``old seed immigrant countries'' that got a 
certain amount of visas through two programs. One was called 
the Donnelly visa after Congressman Donnelly. The other was 
called after Congressman Bruce Morrison, Morrison visas. They 
were certainly very acceptable, but they were unfortunately 
time-limited. They only lasted 3 years. But the Irish community 
at the time developed hugely as a result of those.
    So it is a question of fairness more than anything. We do 
not want to take visas off anyone. We do not want to be seen to 
do that. But we do want a system where we would get an equal 
opportunity to come here as much as any other country.
    Senator Sessions. Thank you. Time is so short on all these 
issues, and, Mr. McDonald, you gave in the appendix a quote 
which I thought was interesting. The one in 1911, the first one 
you lead with was interesting. It said we do not have more 
crime among immigrants, but ``the coming of criminals and 
persons of criminal tendencies constitutes one of the serious 
social effects of the immigration movement.'' The current ``law 
is not adequate to prevent the immigration of criminals, nor is 
it sufficiently effective'' to deport criminals. That is still 
the truth today, isn't it?
    Mr. McDonald. Things have not changed much.
    Senator Sessions. So would that be your suggestion on what 
we should focus on, how to identify people before they come 
with criminal tendencies and to be able to identify those who 
are here that commit crimes and deport them more efficiently?
    Mr. McDonald. I think the attempt to identify people with 
criminal tendencies is a dream.
    Senator Sessions. Well, tendencies, but records. A lot of 
people that come, they apply at the embassy and they do check 
some of their records. I do not know how adequate that is.
    Mr. McDonald. A record of serious criminality I suppose 
could be a criterion for exclusion, but it would have to be 
true serious criminality, not the sort of thing that the 
Congress created when it created the category of ``aggravated 
felon.'' If you look at the lists included in that category, it 
is clear that you do not have to be a felon and the crime does 
not have to be aggravated. It is just a laundry list. So I--
    Senator Sessions. You mean that two from Honduras that 
applied to come to the United States and one had a series of 
minor crimes and one was valedictorian of their class, the one 
with the crimes ought to have the equal right to enter as 
compared to the other?
    Mr. McDonald. How minor?
    Senator Sessions. Well, we cannot accept everybody, so why 
shouldn't we select those that have no criminal history as 
opposed to those who have a criminal history? Whose interest 
are we representing--the United States or the person who would 
like to come?
    Mr. McDonald. Sure, but I think the standard should not be 
minor crimes. Minor crimes cover an awful lot of territory. 
Serious crimes, sure.
    Senator Sessions. All right. Mr. Cutler, my time is about 
up, and I did not get to Mr. Johnson, who does a great job in 
making his presentation. Thank you for those good numbers I 
made reference to.
    I would just ask you, Mr. Johnson, if the wages of native-
born workers without a high school diploma have declined in the 
1990s, wouldn't that indicate we do not have a labor shortage 
for unskilled workers?
    Mr. Johnson. No, sir. The reality is that wage inequality 
is an issue that we have been dealing with since the 1970s, and 
maybe even before, and it really had, you know, very little to 
do with immigration.
    Senator Sessions. Well, let me ask this question: If there 
is a shortage of low-skilled labor in America, doesn't the 
economic reality indicate their wages will go up? And why have 
they not gone up if there is not--
    Mr. Johnson. Again, they have not gone up because of the 
issues of wage inequality. We are in a time now in a knowledge-
based economy where we put a high premium on people who have 
education and training. And we have been paying people who do 
not have a lot of education and training less and less since 
the 1970s, before we had large waves of immigration.
    It is too simplistic to say supply and demand, the more 
people come means that the price goes down. Take an easy 
example. We have today a copy shop on every corner, Starbucks 
everywhere, and yet people line up every day to pay more than 
we have ever paid for coffee than at any time in the history of 
the country because demand has kept pace with supply. So if the 
demand for less skilled workers is keeping pace with supply, 
then the impact on wages is not going to exist. It is 
competition that drives down wages, and that is my point. We do 
not have a lot of competition with immigrant workers because 
immigrant workers come in to fill gaps in our labor force. They 
come in at the low end of the skill spectrum and the high end 
of the skill spectrum, and the U.S. workforce is right there in 
the middle.
    Senator Sessions. Well, I think you would agree that 
Professor Borjas at the Kennedy School at Harvard who has 
written a book, ``Heaven's Door;'' Professor Chiswick of the 
University of Illinois; Robert Rector at the Heritage 
Foundation; and Andrew Sum, I believe at Northeastern, would 
disagree with you.
    Mr. Johnson. They would disagree with me, and they would 
also disagree with David Card and Giovanni Perry and Dr. 
Feinberg at Brown University. I mean, you get ten economists in 
a room, you are going to get ten different answers.
    Chairman Specter. Senator Sessions, how much more time 
would you like?
    Senator Sessions. My time is up.
    Chairman Specter. Senator Sessions, thank you very much.
    Mr. Cutler, Mr. Johnson, Dr. McDonald, Mr. O'Dowd--
    Senator Sessions. You have been very generous, I have to 
say.
    [Laughter.]
    Chairman Specter. Well, we have exceeded the time limit to 
some extent, but not a whole lot, and we very much appreciate 
your coming in. We are going to continue these hearings to 
analyze further the respective positions of the Senate and 
House on the immigration issue and inform the American people 
that we are very serious about border enforcement and employer 
verification. We are also very serious about a guest worker 
program and very serious about dealing in a human, realistic 
way with 11 million undocumented aliens. And your contribution 
has been very substantial, so we thank you, and that concludes 
our hearing.
    [Whereupon, at 11:34 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T1098.001

[GRAPHIC] [TIFF OMITTED] T1098.002

[GRAPHIC] [TIFF OMITTED] T1098.003

[GRAPHIC] [TIFF OMITTED] T1098.004

[GRAPHIC] [TIFF OMITTED] T1098.005

[GRAPHIC] [TIFF OMITTED] T1098.006

[GRAPHIC] [TIFF OMITTED] T1098.007

[GRAPHIC] [TIFF OMITTED] T1098.008

[GRAPHIC] [TIFF OMITTED] T1098.009

[GRAPHIC] [TIFF OMITTED] T1098.010

[GRAPHIC] [TIFF OMITTED] T1098.011

[GRAPHIC] [TIFF OMITTED] T1098.012

[GRAPHIC] [TIFF OMITTED] T1098.013

[GRAPHIC] [TIFF OMITTED] T1098.014

[GRAPHIC] [TIFF OMITTED] T1098.015

[GRAPHIC] [TIFF OMITTED] T1098.016

[GRAPHIC] [TIFF OMITTED] T1098.017

[GRAPHIC] [TIFF OMITTED] T1098.018

[GRAPHIC] [TIFF OMITTED] T1098.019

[GRAPHIC] [TIFF OMITTED] T1098.020

[GRAPHIC] [TIFF OMITTED] T1098.021

[GRAPHIC] [TIFF OMITTED] T1098.022

[GRAPHIC] [TIFF OMITTED] T1098.023

[GRAPHIC] [TIFF OMITTED] T1098.024

[GRAPHIC] [TIFF OMITTED] T1098.025

[GRAPHIC] [TIFF OMITTED] T1098.026

[GRAPHIC] [TIFF OMITTED] T1098.027

[GRAPHIC] [TIFF OMITTED] T1098.028

[GRAPHIC] [TIFF OMITTED] T1098.029

[GRAPHIC] [TIFF OMITTED] T1098.030

[GRAPHIC] [TIFF OMITTED] T1098.031

[GRAPHIC] [TIFF OMITTED] T1098.032

[GRAPHIC] [TIFF OMITTED] T1098.033

[GRAPHIC] [TIFF OMITTED] T1098.034

[GRAPHIC] [TIFF OMITTED] T1098.035

[GRAPHIC] [TIFF OMITTED] T1098.036

[GRAPHIC] [TIFF OMITTED] T1098.037

[GRAPHIC] [TIFF OMITTED] T1098.038

[GRAPHIC] [TIFF OMITTED] T1098.039

[GRAPHIC] [TIFF OMITTED] T1098.040

[GRAPHIC] [TIFF OMITTED] T1098.041

[GRAPHIC] [TIFF OMITTED] T1098.042

[GRAPHIC] [TIFF OMITTED] T1098.043

[GRAPHIC] [TIFF OMITTED] T1098.044

[GRAPHIC] [TIFF OMITTED] T1098.045

[GRAPHIC] [TIFF OMITTED] T1098.046

[GRAPHIC] [TIFF OMITTED] T1098.047

[GRAPHIC] [TIFF OMITTED] T1098.048

[GRAPHIC] [TIFF OMITTED] T1098.049

[GRAPHIC] [TIFF OMITTED] T1098.050

[GRAPHIC] [TIFF OMITTED] T1098.051

[GRAPHIC] [TIFF OMITTED] T1098.052

[GRAPHIC] [TIFF OMITTED] T1098.053

[GRAPHIC] [TIFF OMITTED] T1098.054

[GRAPHIC] [TIFF OMITTED] T1098.055

[GRAPHIC] [TIFF OMITTED] T1098.056

[GRAPHIC] [TIFF OMITTED] T1098.057

[GRAPHIC] [TIFF OMITTED] T1098.058

[GRAPHIC] [TIFF OMITTED] T1098.059

[GRAPHIC] [TIFF OMITTED] T1098.060

[GRAPHIC] [TIFF OMITTED] T1098.061

[GRAPHIC] [TIFF OMITTED] T1098.062

[GRAPHIC] [TIFF OMITTED] T1098.063

[GRAPHIC] [TIFF OMITTED] T1098.064

[GRAPHIC] [TIFF OMITTED] T1098.065

[GRAPHIC] [TIFF OMITTED] T1098.066

[GRAPHIC] [TIFF OMITTED] T1098.067

[GRAPHIC] [TIFF OMITTED] T1098.068

[GRAPHIC] [TIFF OMITTED] T1098.069

[GRAPHIC] [TIFF OMITTED] T1098.070

[GRAPHIC] [TIFF OMITTED] T1098.071

[GRAPHIC] [TIFF OMITTED] T1098.072

[GRAPHIC] [TIFF OMITTED] T1098.073

[GRAPHIC] [TIFF OMITTED] T1098.074

[GRAPHIC] [TIFF OMITTED] T1098.075

[GRAPHIC] [TIFF OMITTED] T1098.076

[GRAPHIC] [TIFF OMITTED] T1098.077

[GRAPHIC] [TIFF OMITTED] T1098.078

                                 <all>

</pre></body></html>
